/ L, ^

No.

» .

'* /

7

3fa®be

Supreme Court of tfje ®mteb £s>tatleg

Supreme Court, U.S.
FILED

MtAZ’S* '/ 2021
OFFICE OF THE CLERK

WALTER OSBORNE,
Petitioner,
vs.
5th DCA OF FLORIDA,
Respondent.

On Petition For Writ Of Certiorari
To 5th DCA Of Florida

PETITION FOR WRIT OF CERTIORARI

Walter Osborne
2321 Red Ember Rd.
Oviedo, Florida 32765
(407) 491-5889
ko32765@att.net
Pro Se
February 9, 2021

RECEIVED
MAR 2 9 2021
gf.gg&P/lS'uRT'-u'sl

1

Question #1
This is the main question for this brief.
Other Alternative Questions are background info
so Court is aware of much bigger problems in
5th DCA area of Florida.
Can I get an impartial review via 5th DCA.
Answer is absolutely no, based on what I have
documented for 10 years.
So 5th DCA should help me obtain a change of
venue to the 1, 2, 3, or 4th DCA via recuse
themself from my cases, forever.
So I request that USA require a change of venue
for my current and future cases appealed.
My preference is the 4th DCA.

See following 5th decision in Appendix which
prevents me from getting a change of venue
to another unbiased DCA.
ORDERED that Petitioner’s "... Verified Motion
to Disqualify the 5th DCA and Transfer Case to
An other District Court of Appeals [sic],” filed
December 22, 2020, is treated as an en banc
motion to disqualify the entire court and denied.
Appendix Al: 5D20-2494.

V

List of Parties and Related Cases
Glenn Todd Williams and Douglas E. Kellogg
Williams Law Firm represents Williams and Kellogg.
State Supreme does not have jurisdiction for an appeal
or cert for me, related to 5th decisions. And State Su­
preme has declined to solve the problem of 5th bias, for
unknown reasons.
Not Fair
The family ofjudges at the 5th has been biased against
me for 10 years.
Psychology 101: The problem is bias of “family” of
judges at 5th. So my only remedy is to request a differ­
ent DCA, which is a simple change of venue.
Non-party: Burgos and Avellaneda are no longer active
in this case.
Non-party: Kellogg dummy corporation for himself
only, and used to mislead State courts. Douglas E Kel­
logg Enterprises Inc.
Non-party: State Supreme does not have jurisdiction
for either an Appeal or a Cert of my kind of case.
Related Cases:
5thDCA: See my list of 13 recent 5thDCA cases in Ap­
pendix p. A2
All unnecessary, if 5th did thing correctly, like grant a
Prohibition to stop defective local judge from continu­
ous violate of my civil rights. This local judge hurts the
credibility of the entire system. See my two cites from
West Virginia, where Feds of course, again, discovered
that some State courts are a problem.

VI

List of Parties and Related Cases - Continued
18th lower level cases
2018ca479 Osborne v Kellogg
Other defendants are irrelevant because settled or
not participate.
Burgos terminated Kellogg eventually, and Burgos is
now a best friend.
And Burgos is concerned about Williams actions, be­
cause of. . . .
2020calll Osborne v Williams and Kellogg.
Florida Bar letter shows that Bar recommend I sue
Atty Williams and refile mv complaint about William’s
unethical intimidation of one of my attorneys. Bar is
not an effective remedy about Williams intimidation
tactics, which hurts the credibility of the whole system.
Help Please: We need to stop the long term violation of
civil rights of many persons in Florida via persons like
Williams, who use intimidation, half-truths, and mis­
lead State courts.
Help Please: Good attorneys in Florida are afraid to
sue other attorneys in Florida, and afraid to disagree
with State judge misconduct. So the credibility of
whole State system is hurt, every week of the year.
Help Solution: Suggest Increase funding of Feds so
Feds can investigate civil rights problems.
Suggest Decrease State funding, which is typically a
half-truth cover-up of problems. Too much State money
spent to hide problems.
Difficult to believe, but sad truth, similar to how South­
ern States handled the KKK situation after Civil War
#1.

vn
List of Parties and Related Cases - Continued
Help Please: See my exhibit in appendix showing Flor­
ida most corrupt State, because State causes halftruth cover-ups, not solutions. And I cannot appeal to
State Supreme.

Vlll

TABLE OF CONTENTS Summary
1.

Questions with Options

2.

Parties, not in caption

3. Other items in pro se list, which the Court pub­
lishes.
Index of Appendices
Three page annotated TOC of Appendix in the Appen­
dix
12/30/20 Order of 5thDCA for Review. Deny Im­
partial Forum.
Other orders of 5th showing bias and no remedy and
defective other decisions made by 5th.
Sequence Order for Appendix to be explained later
5th Case list. Dates of Selected Decisions included.
12/04/20
12/08/20
12/09/20
11/12/20 supplement Info
11/16/20
12/16/20
Research Report about corruption
Patsy USA Supreme Court Decision Full Page
Summary
International #1 Proof Letter from them to me.
International #2 This can be supplied later, related to
my current communications with International.
10/14/20 lower court decisions and dates.

IX

TABLE OF CONTENTS - Continued
Page
Conduct trial while I was in hospital.
10/20/20 lower court
11/25/20 lower court Completely false or wrong. Did
not follow State or Federal. Made false claims about
cases. Nearly perfect world-wide example of a com­
pletely wrong decision.
Florida Bar no remedy proof, because they require an
impossible.
State has No Remedy Anywhere. List of No Remedy
locations I have researched.
Info State Supreme Moved to Brief
Info of my Flyer running for State Senate (saved for
later pleading).
Table of Authorities
See Jurisdiction etc.
For this particular case, the Jurisdiction is top priority.
You can base all decisions on Art VI and Federal Sub­
stance Due Process Violations
Opinion for Review by USA Supreme
OPINIONS BELOW.
See appendix
See TOC above
Opinion for Review
1. 5th Short opinion deny Impartial Decision Maker.
See Appendix decision.
I submitted an affidavit about 5th being biased against
me for various reasons.
2.

See Appendix Summary of Decisions and orders

X

TABLE OF CONTENTS - Continued
Page
Florida Absurd Policy #1 of #10:
1. Biased decision makers make final
decisions about bias.
2.

to 10. No remedy for violate civil rights via
half-truths, etc.

No remedy for local court conduct trial while I was in
the hospital - Truly Unbelieveable. Ask International
about this absurd event.
See my documented 13 cases of bias, bias, and more
bias.
My request for transfer my current case to 1,2,3, or
4thDCA was logical.
This is a simple “change of venue”
Recall that Patsy v Florida Entity (See A for one page
summary).
You decided Patsy could have an Impartial.
And Patsy did not have to endure a
half-truth cover-up by Florida entities.
Since 1. 2, 3. 4th are all excellent and unbiased.
the easy solution was to send my appeal to
4thDCA or 1, 2, 3
Absurd Repeated:
Biased decision makers are making
final decisions on bias.
See my documented 13 cases of bias, bias,
and more bias.

XI

TABLE OF CONTENTS - Continued
Page
My request for transfer my current case to 1,2,3, or
4thDCA was logical.
This is a simple “change of venue”
Perfect Worldwide proof of Error:
Conducted a trial while I was in the hospital.
INDEX TO APPENDICES
Contents Summary two pages at begin of Appendix
APPENDIX
12/30/20. Appeal of 5th DCA Court Decision and Un­
fair Reality:
Walter, you will receive a biased pea
or biased opinion,
like we have given you 12 times before.
5th and State Level decisions examples. See my anno­
tations for these biased or half-truth decisions on page.
Publisher would not let me annotate the actual deci­
sions, with my comments.
APPENDIX
USA
Patsy v. Florida Entity. USA Supreme decision full
page.
“Patsy will get an impartial opinion about her con­
cerns.”
Patsy will not have to endure a Florida half-truth
cover-up.
State spends too much money on cover-ups. More de­
tails available.

Xll

TABLE OF CONTENTS - Continued
Page
APPENDIX
International per Art VI supremacy. See Jurisdiction
for Art Vi wording.
See web for wording of UN civil (human) rights trea­
ties we have approved.
One treaty uses “effective remedy” which is simple
words for Federal Substantive Due Process.
APPENDIX
Florida Bar is no remedy
Florida will never provide an “effective remedy”.
Remember the KKK and remember my cases forever.
APPENDIX
Florida Police have no jurisdiction, so Florida should
be declared a cover-up State, by UN and OAS General
Assemblies.
I can prove this with details of my research about Flor­
ida as of 2020. Excellent Feds are over-worked and un­
der-funded for small cases.

Xlll

TABLE OF AUTHORITIES
Page
(See the cite details and wording in the Appendix and
Jurisdiction section.)
Art VI USA Constitution See Jurisdiction
Federal Supremacy in Art VI is —no bluff-—. State
lost civil war #1. And recall the two flights in WWII
that resulted in a total a surrender.
Federal is Supreme in USA forever. And USA Supreme
Court can protect USA citizens living in any State.
Patsy v Florida Agency (see cite details in Appendix)
Art VI Supremacy and International
Endless half pages cites. See my endless cites in
2018ca479 Osborne v Kellogg. I give the cite and then
half page from the cite.
But error-prone Judge conducts Trial while I am in
hospital, so complete injustice in this half-truth coverup by defendants.
Serious problem: Feds are under-funded so they cannot
investigate small issues like my situation.
Michael Thornsbury acted more like a Third World dic­
tator than a West Virginia county judge, a federal
judge said Monday before sentencing him ... to prison.
W.Va. Supreme Court Justice Allen Loughry Is
Charged With ... A federal grand jury has indicted
West Virginia Supreme Court Justice Allen Loughry
on a number of serious charges, from fraud to making
false statements and witness tampering.
See my Jurisdiction. I include Authorities in my Juris­
diction, because you need it there.

XIV

TABLE OF AUTHORITIES - Continued
Page
You do not need Authorities, if you have Jurisdiction.
You can decide things on violated Federal Substantive
Due Process.

1
OPINIONS BELOW
The opinions in the appendix include printed
words that show they are from the
-----1. Docket of 2018ca479, which is public in­
formation on Seminole court website.
The decisions at the local court are false and halftruths. So you can ignore them.
-----2. Docket from the 5thDCA, which is semi
public information.

JURISDICTION
Jurisdiction For Help From USA Supreme or Feds
USA Art VI
This Constitution, and the laws of the United
States which shall be made in pursuance
thereof; and all treaties made [-—Interna­
tional—], or which shall be made, under the
authority of the United States, shall be the
supreme law of the land; and the judges
in every state shall be hound thereby, an­
ything in the Constitution or laws of any State
to the contrary notwithstanding.
1. Defendant, judge, and attorney conduct a trial
while I was in hospital
Defendant, judge, and attorney conduct a trial
while I was in hospital

2

Defendant, judge, and attorney conduct a trial
while I was in hospital
2. And there were serious threats of jail to pre­
vent me from appealing
3. State Police cannot investigate above problem
or other similar problems.
Dear USA Supreme: Based on above shocks, do the
words half-truth cover-up come to mind???
4. 5thDCA is only defective DCA in Florida. The
l,2,3,4thDCA are excellent.
5. Central Florida Court decisions are some­
times half truths to hide some things
Jurisdiction For Help based on my credibility
I am a native Floridian. My grandfather, was im­
portant in Florida. I ran for public office. I am very well
educated via formal education and experience after
(professor).
So I knew that -—Federal is the only effective rem­
edy in Florida—so I always plead Federal in all my
cases—so I can appeal to Federal and International for
help.
The solution to Justice in our World is Interna­
tional, not States within a country. Nuremberg Trials
are a partial start. Long term prison terms violate “tor­
ture” principles. So what do I suggest.

3

5.

28 use 1257 Review of State court of last resort

State Supreme does not offer cert or appeal of 5th
decisions.
18 use 1651 All writs power
International approved treaties (about 5 each).
Federal and USA supreme cites in 2018ca479
which has 400 docket items and most of the 400 are my
efforts.
5th DCA is last State resort for this case. I can
prove this with previous attempts to get State Sup to
decide issues over a 10 year period.
State Supreme is sometimes helpful —indirectly—,
because they do not immediately dismiss cases or
transfer them immediately.
So bad persons have to wonder what might hap­
pen.
6. Rule 10 USA states Jurisdiction not limited to
items in the list.
I cite Federal all the time.
7. Art VI Supremacy which activates all the Fed­
eral Civil Rights.
Including 42uscl983 etc Emphasis: We do have
other good 42usc laws.
18usc bad behavior words, without the penalties
listed in 18usc are a helpful deterrent.

4
USA Bill of Rights and Constitution. I did a de­
tailed analysis in one Federal case in the past and
could look that up and present it in a Brief.
Federal cites in all my pleadings over 20 years.
8. Case involves fraud by defendant and his at­
torney related to a Federal Reserve Bank loan, gives
supplemental jurisdiction.
9. USA Art VI

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
See my Jurisdiction which includes this and
ArtVI usa constitution for supremacy, all Federal
laws, and approved
international principles like “effective remedy”
Federal and International Civil Rights
42uscl983 and all related Federal, including
words used in 18usc laws about bad behavior like
There are other Civil (not criminal) civil rights
laws that have some good words in them.
I have included 18usc words for three reasons:
1. The words are very clear related to bad behav­
ior that should result in punitive damages in a civil
case. Example: “Intimidate” which was used often in

5

case by Williams, directly and indirectly. And Oppres­
sion tactics.
2. I want to get International to institute Nurem­
berg type trials that include the death penalty for per­
sons like two persons in my documented case. Long
term prison terms are a violate of torture treaties. And
death is not bad.
Federal is and should be supreme, per Art VI.
States will always do things backwards and then do a
half-truth cover-up. just like they did after the Civil
War #1. related to the KKK problem.
18usc laws: The principles of protecting civil
rights, not the penalties in these laws.
Conspire, injure, oppress, threaten, intimi­
date are examples.
Various kinds of Intimidate was a serious violation
of civil rights in this 3 year case. The 5th is too dumb
to know how to solve this kind of problem, so forget the
5th family.
I need the 1, 2, 3, 4th DCA who can help improve
things but never the 5th, unless you replace about half
the current judges, so as to break the family tradition
at the 5th.
This is psycology 101 about “family” principle. Re­
place one person, and the former “family” tradition con­
tinues.

6

18usc 241 bad behavior (not the penalties)
conspire to injure, oppress, threaten, or intimidate
any person in any State intent to prevent or hinder his
free exercise or enjoyment of any right or privilege so
secured—
Shock Example: Deliberate intent to stop me
from filing an appeal via real threats of putting me in
jail, where impossible for me to meet deadlines or to
file appeals.
And the 5thDCA dumb written decision in another
case, that a person can have access to courts via an at­
torney— Iwhich only costs a citizen a 20,000 retainer].
Who can afford to spend that amount of money.
And half the parties in cases lose.
This kind of “family” perception needs to be bro­
ken.
Any thing the 5th might perceive about anything,
is probably wrong. Perfect example is the cite I men­
tion above. See my list of 13 cases in Appendix. Citi­
zens will always need help from Federal.
Unbelievable Williams should face an Interna­
tional trial like Nuremberg Truly unbelievable, which
can be proved via an external investigation.

7

STATEMENT OF THE CASE
Introduction
One Federal Issue: This petition arises from the
Petitioners denial of his due process rights in defend­
ing himself in a civil matter against “high dollar per
hour” attorney fees, that were generated to cover-up
dishonesty with a Federal Reserve Bank, related to
construction and environmentally protected area,
which could cause Federal Reserve Bank to lose money,
because a previous project in the area was shut down,
causing loss of money spent on project, as one example
of how contractors cause loss of money, by trying to
hide real things that they know they should not be do­
ing in rural environmental protected areas.
The other issues are violation of Federal Substan­
tive Due Process over 2.5 years.
This includes serious
No Impartial Decision Makers
Trial while I was in hospital—An excellent is­
sue to make International aware of.
Bad psychology of family tradition decision mak­
ers, who perpetuate wrong perceptions, and a bad
prima donna attitude.
Intimidation of two of my attorneys by other side.
Attorneys are afraid to disagree with judges and other
attorneys. So there is “no effective remedy” using the
words of one International treaty.

8

REASON FOR GRANT WRIT
12/30/20. Appeal of 5th DCA Court Decision and
Unfair Reality of unfair actions by 5th on 14 cases and
deny Prohibits etc reto lower court violate Federal
Civil Rights. I recently filed details of gross violate of
civil rights by lower level. They use real jail threats to
stop persons from appealing lower level mistakes.
The Reality of My list of fourteen 5th DCA cases
and all decision, including the 12/30/2020 decision that
is being appealed to the 5th. If I file a Brief, and 5th
make a typical biased decision, then I cannot have any
other review, because State Supreme does not review
5th DCA decisions.
See appendix decision on case 5D20-2494 where
5th refuses to disqualify or refuse to recuse or refuse
to transfer my cases to 4th DCA or other DCA.
If they recuse, then I will get option to file with
another DCA. If they refuse, I need to file with them,
because of my physical location close to the 5th DCA.
More Info Good News related to 1,2,3,4th DCA of
Florida. All are excellent and I should get a change of
venue to one of them. USA could issue a show cause
why 5th refuses to transfer my cases to an impartial
forum.
The 5th DCA violates civil rights of USA Citizens
all the time, by refusing to issue Prohibition to local
courts from violating civil right of USA Citizens. Ab­
surd: Lower level uses real JAIL threats to stop citi­
zens from filing appeals about their mistakes. Horrible

9
violation of Civil Rights, and myself and others have
No Remedy.
See my perfect documentation of lower level con­
tinuous mistakes.

The order on appeal is deny to recuse so I can
have a change of venue.
ORDERED that Petitioner’s "... Verified Mo­
tion to Disqualify the 5th DCA and Transfer Case
to An other District Court of Appeals [sic],” filed
December 22, 2020, is treated as an en banc motion
to disqualify the entire court and denied.
Appendix Al: 5D20-2494.

10
UNFAIR DECISIONS IN APPENDIX:
Dec 30—A1 appendix page numbers
About 9 5thDCA judges, who have good reasons
to be biased against me because of my
past criticism of them, my pro-se status,
and other actions that make this group
extremely biased about me.
The 1, 2, 3, 4th would have zero bias
about me, so a change of venue was
needed for impartial on merit.
So a cover-up of false
local decisions would be an
absolute certainty.
Biased persons making final
decisions about bias.
Typical dumb by prima donna 5th: Brown and
Westfall irrelevant.
Dec 4-—A3 page
5th endless cover-up of problems
at lower levels.
A common sense problem, needs
to be reviewed.
Dec 8-—A4 page
5th cover-up of lower courts.
They did not like what I had documented
as error, so they deny on merits.
Dec 9—A5 page

11
I need to be able to change venue,
to an unbiased decision maker.
10 adverse decisions is proof of bias.
All wrong 5th gross injustice.
We need to appeal a decision, that
would completely stop a case now.
No need to waste time on continue, when it
was obvious now that case should end now.
Nov 12 my pleading—A7 page
State atty general needs guidance.
You do not hire war-game specialist
to defend bad behavior State employees.
Nov 16—A9 page
Typical cover-up by 5th.
I filed another Prohibit later, and they
assumed it was a duplicate—So
a biased group who pre-judges things.
My request for change of venue to
a different group was denied later.
Total injustice caused by biased 5th.
Dec 16—A10 page
1, 2, 3, 4thDCA are excellent, but half the 5th family
should be moved or retired early.
You do not “deny access to courts” via these dumb
judges, via a Cert. You conduct a jury trial for
such a gross violate of civil rights. Or you give
a person multiple warnings like our
wise Federal Courts.

12
Dumb—Dumb decisions.
See their own cited Favreau decision.
I got an estimate of 20,000 retainer fee,
for one of Roberts decisions at lower
level. —Not access to courts—
And State Supreme does nothing about
complaints about the 5th dumb decisions,
because they claim no jurisdiction.
Jan 22 2014 News—A12 page
Florida is -—most— corrupt State
Compare
Florida 824
California 547
And CA has much greater population.
Partial Reason: Defective DCA like the 5thDCA,
who encourages corruption via. . . .
A13 page

June 1982
Patsy v Florida Entity

Patsy did Continuous Appeals to the
USA Supreme and won
“You get to present your concerns to an
Impartial.” You do not have to endure a
half-truth cover-up from Florida.
Oct 14—A17 page
Most absurd decision in world in last 100 years
Lower Court Half-truth Decisions

13
Unbelievable-Conducted a trial while I was
in hospital.
And did something similar later.
Will this cause the UN and OAS General
Assemblies to think
“I wonder what they wanted to cover-up with
half-truths??”
4. is half-truth cover-up.
Completely misleading False.
A USA citizen needs to be able to get Police to
investigate a state judge like this. See my example
where Feds found similar problem in W.VA.
No remedy and a 5th Biased review, for this
can cause a serious discredit to any justice system
in the world.
Oct 20—A18 page
My attorney gave details of my hospital on
Friday and Saturday
Defendant conduct a trial while I was in hospital.
Unbelievable.
Nov 25—A20-21 page
Absurd decision.
Whole situation was a fraud cover-up.
20 days absurd
Threat of Jail more than once to prevent
me from an Appeal.
See the devious 9. Writs of bodily attachment etc.
Fed are over worked and underfunded.
State prevents the State Police from investigate
this kind of fraud.

14
Guess what UN and OAS General Assemblies
will think about Florida 5thDCA: Most Corrupt
news article and what I have documented, so as to
request some improvement via Supreme law
which should continue to be Federal and
USA Supreme Court.

CONCLUSIONS AND WHEREFORE
1. I request a delay in making decision about accept­
ing this, so I can obtain several amicus briefs in support.
2. Issue a show cause to 5th and/or State Su­
preme about how they plan to provide an Impartial
Decision Maker for my Art VI complaints, when I con­
sistently plead ArtVI supremacy and Federal plus In­
ternational civil rights, at lower and higher levels of
State courts. Since I have State issues in cases, I need
to file in State Courts.
Easy solution: Let me file appeals with 4thDCA,
close to where I got my Doctorate in Higher Education.
3. State is a complete failure related to civil
rights in the 5th area of Florida. This is an exact du­
plicate of problem after civil war, where the Feds had
to solve problems with KKK advocates, because States
were a failure.
4. And remind Florida of Federal Supremacy and
of the two flights over Japan, in WWII. If there was a
second civil war, Federal could win it in 3 days.

15
Recall all the half-truths that State gave you in
Patsy case. State currently wants to cover-up its con­
tinuous mistakes, because of poor management.
5. The best solution for civil rights in the South
is for USA Supreme Court to request the excellent
Feds to investigate complaints, like my complaint.
State is currently a complete failure and does not in­
vestigate valid complaints. See my exhibit where State
is the most corrupt State in USA.
6. Special conditions: I am 74 and sick. My best
friend died year ago. This 3 year torture situation has
been devastating to my physical health. So I am unable
to do a good brief, like I could have done as a professor
at age 64.
Submitted by
Walter Osborne
2321 Red Ember Rd
Oviedo, Florida 32765
407 491 5889 ko32765@att.net
Pro-se, with much experience.

